No. 20-5379
IN THE

Supreme Court of the United States
KEITH ADAIR DAVIS,

Petitioner,

v.
STATE OF WASHINGTON,

Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Washington
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by this Court’s Order of November
13, 2020), that I have, this 17th day of November, 2020, served the Reply Brief for
Petitioner upon each party separately represented in this proceeding by causing an
electronic copy of the same to be delivered to counsel of record at the e-mail address
listed below:
James Morrissey Whisman
King County Prosecutor’s Office
516 3rd Avenue
W554 King County Courthouse
Seattle, WA 98104
Jim.whisman@kingcounty.gov
Counsel of Record for Respondent
Pursuant to the Court’s November 13 Order, I certify that all parties have
agreed to accept such electronic service in lieu of service of paper copies. I further
certify that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
November 17, 2020

Counsel of Record for Petitioner

